      DEPARTMENT OF HEALTH &. HUMAN SERVICES                                   Office of Inspector General


                                                                               Washington, D.C. 20201



                                          APR ,:2 0 2009


TO:            Charlene Frizzera
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          Daniel R. Levinson   ~,u,l, ~. ~
               Inspector General


SUBJECT:       Nationwide Review of Evaluation and Management Services Included in Eye and
               Ocular Adnexa Global Surgery Fees for Calendar Year 2005 (A-05-07-00077)


The attached final report provides the results ofour review of evaluation and management
(E&M) services included in eye and ocular adnexa (eye) global surgery fees for calendar year
(CY) 2005. The Centers for Medicare & Medicaid Services (CMS) requested this review.

Medicare pays for physicians' services furnished on or after January 1, 1992, based on an
established fee schedule that CMS updates annually. The fee schedule amounts are based on the
resources, such as physician time and intensity ofthe work (measured in relative value units),
involved with furnishing services. Included on the fee schedule are global surgery fees, which
include payment for a surgical service and the related preoperative and postoperative E&M
services provided during the global surgery period. The period for major surgeries includes the
day before the surgery, the day of the surgery, and the 90 days immediately following the day of
the surgery. In determining a global surgery fee, CMS estimates the number ofE&M services
that a physician provides to a typical beneficiary during the global surgery period. CMS
reimbursed physicians approximately $1.6 billion for major eye global surgeries performed
during CY 2005.

Our objective was to determine whether eye global surgery fees reflected the number of E&M
services that physicians provided to beneficiaries during the global surgery periods.

Eye global surgery fees often did not reflect the number of E&M services that physicians
provided to beneficiaries during the global surgery periods. The fees reflected the number of
E&M services provided during the global surgery periods for 60 of the 300 global surgeries that
we sampled. The fees for the remaining 240 global surgeries did not reflect the number of E&M
services provided. Specifically, physicians provided fewer E&M services than were included in
201 global surgery fees and provided more E&M services than were included in 39 global
surgery fees.
Page 2 – Charlene Frizzera


Using the net results, we estimated that Medicare paid $97.6 million for E&M services that were
included in eye global surgery fees but not provided during the global surgery periods in
CY 2005. The global surgery fees did not reflect the number of E&M services provided to
beneficiaries because CMS had not adjusted or recently adjusted the relative value units for most
of the sampled surgeries.

We recommend that CMS consider:

   •   adjusting the estimated number of E&M services within eye global surgery fees to reflect
       the number of E&M services actually being provided to beneficiaries, which may reduce
       payments by an estimated $97.6 million, or

   •   using the financial results of this audit, in conjunction with other information, during the
       annual update of the physician fee schedule.

In written comments on our draft report, CMS acknowledged the merit of our findings but
believed that it would be prudent to conduct further analysis before proposing any changes in the
number of E&M services assigned to eye surgeries.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of Inspector General reports
generally are made available to the public to the extent that information in the report is not
subject to exemptions in the Act. Accordingly, this report will be posted on the Internet at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov.
Please refer to report number A-05-07-00077 in all correspondence.


Attachment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    NATIONWIDE REVIEW OF
 EVALUATION AND MANAGEMENT
 SERVICES INCLUDED IN EYE AND
    OCULAR ADNEXA GLOBAL
      SURGERY FEES FOR
     CALENDAR YEAR 2005




                    Daniel R. Levinson
                     Inspector General

                        April 2009
                      A-05-07-00077
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.

                               EXECUTIVE SUMMARY
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov



Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Medicare program pays for physicians’ services furnished on or after January 1, 1992, based
on an established fee schedule that is updated annually. The fee schedule amounts are based on
the resources, such as physician time and intensity of the work (measured in relative value units
(RVU)), involved with furnishing services. The Centers for Medicare & Medicaid Services
(CMS), which administers the Medicare program, must review the RVUs at least every 5 years
and adjust them as it deems necessary to account for such developments as medical practice or
coding changes, new data, or new procedures.

Included on the fee schedule are global surgery fees, which include payment for a surgical
service and the related preoperative and postoperative evaluation and management (E&M)
services provided during the global surgery period. The period for major surgeries includes the
day before the surgery, the day of the surgery, and the 90 days immediately following the day of
the surgery. In determining a global surgery fee, CMS estimates the number of E&M services
that a physician provides to a typical beneficiary during the global surgery period. CMS
compensates physicians for the surgical service and the related E&M services included in the fee
regardless of the E&M services actually provided during the global surgery period.

The American Medical Association Current Procedural Terminology (CPT) identifies codes that
physicians use to report medical services and procedures and claim reimbursement through the
physician fee schedule. The CPT includes 196 codes for major eye and ocular adnexa (eye)
global surgeries. CMS reimbursed physicians approximately $1.6 billion for 195 of these CPT
codes for surgeries performed during calendar year (CY) 2005.

CMS requested this review.

OBJECTIVE

Our objective was to determine whether eye global surgery fees reflected the number of E&M
services that physicians provided to beneficiaries during the global surgery periods.

SUMMARY OF RESULTS

Eye global surgery fees often did not reflect the number of E&M services that physicians
provided to beneficiaries during the global surgery periods. The fees reflected the number of
E&M services provided during the global surgery periods for 60 of the 300 global surgeries that
we sampled. The fees for the remaining 240 global surgeries did not reflect the number of E&M
services provided. Specifically, physicians provided fewer E&M services than were included in
201 global surgery fees and provided more E&M services than were included in 39 global
surgery fees.

Using the net results, we estimated that Medicare paid $97.6 million for E&M services that were
included in eye global surgery fees but not provided during the global surgery periods in



                                                i
CY 2005. The global surgery fees did not reflect the number of E&M services provided to
beneficiaries because CMS had not adjusted or recently adjusted the RVUs for most of the CPT
codes in our sample.

RECOMMENDATIONS

We recommend that CMS consider:

   •   adjusting the estimated number of E&M services within eye global surgery fees to reflect
       the number of E&M services actually being provided to beneficiaries, which may reduce
       payments by an estimated $97.6 million, or

   •   using the financial results of this audit, in conjunction with other information, during the
       annual update of the physician fee schedule.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS acknowledged the merit of our findings but
believed that it would be prudent to conduct further analysis before proposing any changes in the
number of E&M services assigned to eye surgeries.

CMS’s comments, except for technical comments, are included as Appendix D.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Physician Fee Schedule.........................................................................................1
              Global Surgery Fees..............................................................................................1
              Eye and Ocular Adnexa Global Surgeries ............................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope.....................................................................................................................2
               Methodology .........................................................................................................2

RESULTS OF AUDIT................................................................................................................3

          FEDERAL REQUIREMENTS.........................................................................................4

          EVALUATION AND MANAGEMENT SERVICES INCLUDED IN GLOBAL
            SURGERY FEES VERSUS SERVICES PROVIDED ..............................................4

          RELATIVE VALUE UNITS NOT ADJUSTED .............................................................5

          RECOMMENDATIONS..................................................................................................5

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS .....................5

APPENDIXES

          A – SAMPLING METHODOLOGY

          B – SAMPLE RESULTS AND ESTIMATES

          C – CURRENT PROCEDURAL TERMINOLOGY CODES AND DATES OF
               ADJUSTMENTS FOR SAMPLED SURGERIES

          D – CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                              INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance coverage to people age 65 and over and those who are disabled or have
permanent kidney disease. The Centers for Medicare & Medicaid Services (CMS), which
administers the Medicare program, requested this review.

Physician Fee Schedule

Medicare Part B pays for physicians’ services, including surgeries and evaluation and
management (E&M) services, 1 provided to beneficiaries. Section 1848 of the Act requires
Medicare to pay for physicians’ services furnished on or after January 1, 1992, based on an
established fee schedule that CMS updates annually. The fee schedule considers three major
categories of costs required to provide physicians’ services: physician work, practice expense,
and malpractice insurance. Sections 1848(b) and (c) of the Act require that fee schedule amounts
be based on the resources, such as physician time and intensity of the work, needed to furnish
services. For each of the three categories of costs, CMS determines the relative value unit
(RVU), which is a measure of the resources involved with furnishing a service, and uses the
three RVUs to calculate the fee schedule amount for each physician service.

Section 1848(c)(2)(B) of the Act requires CMS to review the RVUs at least every 5 years and to
adjust them as it deems necessary to account for such developments as medical practice or
coding changes, new data, or new procedures.

Global Surgery Fees

The “Medicare Claims Processing Manual,” Pub. No. 100-04, ch. 12, § 40, contains the national
policy on global surgeries. A global surgery is a group of clinically related services, including
the surgical service and related preoperative and postoperative services, that are treated as a
single unit for purposes of coding, billing, and reimbursement.

To ensure consistent payment for the same surgery across Medicare carrier jurisdictions
nationwide, CMS established global surgery fees. CMS determines each fee based on the RVUs
for a typical beneficiary receiving the surgery and related E&M services during a global surgery
period. The period for major surgeries includes the day before the surgery, the day of the
surgery, and the 90 days immediately following the day of the surgery. CMS estimates the
number of E&M services that a typical beneficiary receives during the global surgery period and
includes reimbursement for those E&M services in the global surgery fee. If the surgeon
transfers postoperative care to another physician, the physicians split the fee.



1E&M   services are nonsurgical services provided for the purpose of diagnosing and treating diseases or counseling
and evaluating beneficiaries.


                                                         1
Eye and Ocular Adnexa Global Surgeries

The American Medical Association Current Procedural Terminology (CPT) is a listing of
descriptive terms and codes that physicians use to report medical services and procedures and
claim reimbursement through the physician fee schedule. The CPT includes 196 codes for major
eye and ocular adnexa (eye) global surgeries, such as cataract surgery, glaucoma surgery, and
correction of astigmatism. CMS reimbursed physicians approximately $1.6 billion for 195 of
these CPT codes for surgeries performed during calendar year (CY) 2005.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether eye global surgery fees reflected the number of E&M
services that physicians provided to beneficiaries during the global surgery periods.

Scope

We reviewed Medicare payments totaling approximately $1.6 billion made to physicians
nationwide for 3,438,973 major eye global surgeries and related E&M services provided during
CY 2005.

We limited our review of internal controls to understanding CMS’s policies and procedures for
reimbursing physicians for global surgeries and establishing and updating global surgery fees.
We limited our review of RVUs to determining the number of E&M services included in eye
global surgery fees. We did not determine the medical necessity of the surgeries or the related
E&M services.

We performed our fieldwork from July 2007 through May 2008 by coordinating our
methodology with CMS staff and obtaining medical records from physicians who received
Medicare reimbursement for the global surgeries that we sampled.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    discussed Medicare global surgery policy and procedures, including the establishment
        and update of global surgery fees, with CMS staff;

   •    identified a sampling frame of 3,438,973 major eye global surgeries totaling
        approximately $1.6 billion and divided the sampling frame into three strata:

        o stratum 1 for CPT code 66984 for cataract surgeries, which represented about
          60 percent of the total payments in the sampling frame,


                                                2
       o stratum 2 for the 119 CPT codes (excluding code 66984 for cataract surgeries) that
         included four or more E&M services in the global surgery fees, and

       o stratum 3 for the 75 CPT codes that included fewer than four E&M services in the
         global surgery fees;

   •   randomly selected 100 surgeries from each stratum for a total of 300 surgeries with
       payments totaling $149,131 for 45 CPT codes (Appendix A);

   •   obtained all paid claims related to the sampled surgeries and, for each surgery:

       o identified the name of the beneficiary, date of the surgery, applicable 92-day global
         surgery period, and name(s) of the physician(s) who provided the surgery and
         postoperative care;

       o requested and received medical records from the physician(s), identified the number
         of office visits provided during the global surgery period, and counted each office
         visit as an E&M service; and

       o determined the difference, if any, between the number of E&M services provided to
         the beneficiary and the number of E&M services included in the global surgery fee
         and determined the net dollar value of the difference; and

   •   used the sample results to estimate the Medicare reimbursement for E&M services that
       were included in eye global surgery fees but not provided to beneficiaries during global
       surgery periods in CY 2005 (Appendix B).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                    RESULTS OF AUDIT

Eye global surgery fees often did not reflect the number of E&M services that physicians
provided to beneficiaries during the global surgery periods. The fees reflected the number of
E&M services provided during the global surgery periods for 60 of the 300 global surgeries that
we sampled. The fees for the remaining 240 global surgeries did not reflect the number of E&M
services provided. Specifically, physicians provided fewer E&M services than were included in
201 global surgery fees and provided more E&M services than were included in 39 global
surgery fees.

Using the net results, we estimated that Medicare paid $97.6 million for E&M services that were
included in eye global surgery fees but not provided during the global surgery periods in




                                                3
CY 2005. The global surgery fees did not reflect the number of E&M services provided to
beneficiaries because CMS had not adjusted or recently adjusted the RVUs for most of the CPT
codes in our sample.

FEDERAL REQUIREMENTS

The “Medicare Claims Processing Manual,” Pub. No. 100-04, ch. 12, § 40, provides that the
global surgery fee includes payment for the surgical service and preoperative and postoperative
E&M services provided during the global surgery period. The period for major surgeries
includes the day before the surgery, the day of the surgery, and the 90 days immediately
following the day of the surgery. CMS compensates physicians for the surgical service and
related E&M services included in the fee regardless of the E&M services actually provided
during the global surgery period.

EVALUATION AND MANAGEMENT SERVICES INCLUDED IN
GLOBAL SURGERY FEES VERSUS SERVICES PROVIDED

For 240 of the 300 eye global surgeries sampled, the global surgery fees did not reflect the
number of E&M services actually provided during the global surgery periods. As shown in the
following table, a total of 1,254 E&M services were included in the global surgery fees for the
300 sampled surgeries, but physicians provided 945 E&M services, a difference of 309 E&M
services totaling $12,277.

           E&M Services Included in Global Surgery Fees Versus Services Provided
             Number                            Number of
             of E&M         Number of             E&M             Number of
             Services        Sampled             Services           E&M                            Net Dollar
             Included         Global           Included in         Services                         Value of
Stratum       in Fees       Surgeries         Sampled Fees         Provided        Difference      Difference 2
   1             4             100                   400             362               38             $1,154
   2            ≥4             100                   611             428              183              7,507
   3            <4             100                   243             155               88              3,616
 Total                         300                 1,254             945              309           $12,277

Using the net results, we estimated that Medicare paid $97.6 million for E&M services that were
included in eye global surgery fees but not provided during the global surgery periods in
CY 2005 (Appendix B).




2To calculate the net dollar value of the difference, we used 80 percent of the lowest fee schedule amount for an
E&M service included in the global surgery fee. The 80 percent represented the Federal share for the E&M service,
and the remaining 20 percent represented beneficiary coinsurance.


                                                        4
RELATIVE VALUE UNITS NOT ADJUSTED

Eye global surgery fees did not reflect the number of E&M services provided to beneficiaries
because CMS had not adjusted or recently adjusted the RVUs for most of the 45 eye global
surgery CPT codes in our sample. Specifically, as of January 25, 2008, CMS:

   •   had not adjusted the RVUs for 24 codes since the fee schedule was established in 1992;

   •   adjusted the RVUs for 10 codes in 1997;

   •   adjusted the RVUs for 9 codes in 2007; and

   •   had not adjusted the RVUs for 2 codes established in 1999 and 2001, respectively.

Appendix C contains details on these adjustments.

RECOMMENDATIONS

We recommend that CMS consider:

   •   adjusting the estimated number of E&M services within eye global surgery fees to reflect
       the number of E&M services actually being provided to beneficiaries, which may reduce
       payments by an estimated $97.6 million, or

   •   using the financial results of this audit, in conjunction with other information, during the
       annual update of the physician fee schedule.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS acknowledged the merit of our findings but
believed that it would be prudent to conduct further analysis before proposing any changes in the
number of E&M services assigned to eye surgeries. CMS said that it would continue to work
with the American Medical Association Relative Value Update Committee and the relevant
physician specialty societies to identify and correct those services for which the number of E&M
services in the global period has changed. CMS also provided technical comments, which we
addressed as appropriate.

CMS’s comments, except for technical comments, are included as Appendix D.




                                                 5
APPENDIXES
                                                                                   APPENDIX A
                                                                                     Page 1 of 2

                                    SAMPLING METHODOLOGY

POPULATION

The population consisted of Medicare-paid major eye global surgeries with dates of service in
calendar year 2005.

SAMPLING FRAME

The sampling frame consisted of 3,438,973 major eye global surgeries with Medicare payments
totaling $1,587,571,001. The table below shows the sampling frame information for each
stratum.

                                           Sampling Frame

                Stratum and Description           Number of Surgeries         Payments
         1—Cataract surgeries (CPT 66984) 1             1,812,179            $959,275,605
         2—Surgeries (excluding CPT 66984)
         with four or more E&M services                   459,311              283,636,920
         included in the fee 2
         3—Surgeries with fewer than four
                                                        1,167,483              344,658,476
         E&M services included in the fee
             Total                                      3,438,973          $1,587,571,001

SAMPLE UNIT

The sample unit was a major eye global surgery.

SAMPLE DESIGN AND SIZE

We used a stratified random sample that consisted of 300 lines of surgery for three strata (100
sample items per stratum).

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services, statistical software to
generate the random numbers.




1CPT   = Current Procedural Terminology.

2E&M    = evaluation and management.
                                                                                 APPENDIX A
                                                                                   Page 2 of 2

METHOD OF SELECTING SAMPLE ITEMS

After sorting each stratum’s surgeries by health insurance claim number, date of service, and
payment amount from low to high, we sequentially numbered the lines of surgery. We selected a
global surgery for review when the random number value equaled the sequential number.

ESTIMATION METHODOLOGY

We used the Office of Inspector General, Office of Audit Services, statistical software to
estimate the dollar value of E&M services included in global surgery fees but not provided
during the global surgery periods.
                                                                                                      APPENDIX B


                                 SAMPLE RESULTS AND ESTIMATES

                                     Sample Results:
           E&M Services Included in Global Surgery Fees Versus Services Provided
                                                                                             Total
                                                                                          Number of
                                                                                          Surgeries
                                                                                          With E&M
             Number                                                                        Services            Net
             of E&M                      Number of       Number of       Number of         Provided          Dollar
             Services                    Surgeries       Surgeries       Surgeries         That Did         Value of
             Included                       With            With            With          Not Equal        Difference
                in         Number          Equal           Fewer           More              E&M               in
              Global          of           E&M             E&M             E&M             Services         Number
             Surgery       Sampled        Services        Services        Services         Included         of E&M
Stratum        Fees        Surgeries      Provided        Provided        Provided          in Fees        Services 1

  1              4            100              32             51               17               68            $1,154
  2             ≥4            100              10             79               11               90             7,507
  3             <4            100              18             71               11               82             3,616
 Total                        300              60             201              39               240          $12,277


                         Estimated Dollar Value of E&M Services Included in
                                Global Surgery Fees but Not Provided
                                                          Limits Calculated for a 90-Percent
                                         Point
                     Stratum                                     Confidence Interval
                                        Estimate
                                                           Lower Limit        Upper Limit
                          1             $20,921,425             $7,231,587           $34,611,264
                          2              34,481,901             28,536,475             40,427,326
                          3              42,212,916             32,880,183             51,545,649
                       Overall           $97,616,242          $80,178,134 2         $115,054,3512




1To calculate the net dollar value of the difference, we used 80 percent of the lowest fee schedule amount for an
E&M service included in the global surgery fee. The 80 percent represented the Federal share for the E&M service,
and the remaining 20 percent represented beneficiary coinsurance.

2The  sum of the lower limits for the three strata is not mathematically equal to the overall lower limit. The same is
true for the upper limits.
                                                                                 APPENDIX C
                                                                                   Page 1 of 2


           CURRENT PROCEDURAL TERMINOLOGY CODES AND DATES OF
                   ADJUSTMENTS FOR SAMPLED SURGERIES

Our sample of 300 eye global surgeries included 45 CPT codes. The following tables identify
the 45 CPT codes by stratum and indicate the year in which the Centers for Medicare
& Medicaid Services (CMS) last adjusted the relative value units for each code since establishing
the fee schedule in 1992.

                                                Stratum 1
               CPT Code                 Description          Last CMS Adjustment
                               Cataract surgery with
              66984                                                  2007
                               intraocular lens, 1 stage

                                                Stratum 2
              CPT Code                   Description         Last CMS Adjustment
              65400           Removal of eye lesion               Not adjusted
              66940           Extraction of lens                  Not adjusted
              67010           Partial removal of eye fluid        Not adjusted
              67036           Removal of inner eye fluid          Not adjusted
              67039           Laser treatment of retina           Not adjusted
              67040           Laser treatment of retina           Not adjusted
              67107           Repair detached retina              Not adjusted
              67108           Repair detached retina              Not adjusted
              67255           Reinforce/graft eye wall            Not adjusted
              67314           Revise eye muscle                   Not adjusted
              68320           Revise/graft eyelid lining          Not adjusted
              68700           Repair tear ducts                   Not adjusted
              68750           Create tear duct drain              Not adjusted
              67220           Treatment of choroid lesion         Not adjusted 1
              66982           Cataract surgery, complex           Not adjusted 2
              65450           Treatment of corneal lesion             1997
              66170           Glaucoma surgery                        1997
              66172           Incision of eye                         1997
              66180           Implant eye shunt                       1997
              66825           Reposition intraocular lens             1997
              67015           Release of eye fluid                    1997
              68720           Create tear sac drain                   1997



1CPT   code 67220 was established in 1999.

2CPT   code 66982 was established in 2001.
                                                            APPENDIX C
                                                              Page 2 of 2

CPT Code               Description          Last CMS Adjustment
67038       Strip retinal membrane                 2007
67445       Explore/decompress eye socket          2007
67904       Repair eyelid defect                   2007
67911       Revise eyelid defect                   2007
67966       Revision of eyelid                     2007

                             Stratum 3
 CPT Code             Description           Last CMS Adjustment
65772        Correction of astigmatism           Not adjusted
65810        Drainage of eye                     Not adjusted
66250        Follow-up surgery of eye            Not adjusted
66762        Revision of iris                    Not adjusted
67105        Repair detached retina              Not adjusted
67141        Treatment of retina                 Not adjusted
67880        Revision of eyelid                  Not adjusted
67908        Repair eyelid defect                Not adjusted
67909        Revise eyelid defect                Not adjusted
67916        Repair eyelid defect                Not adjusted
67961        Revision of eyelid                  Not adjusted
67210        Treatment of retinal lesion            1997
67312        Revise two eye muscles                 1997
67900        Repair brow defect                     1997
66761        Revision of iris                       2007
66821        After-cataract laser surgery           2007
67228        Treatment of retinal lesion            2007
APPENDIX D
  Page 1 of 2
APPENDIX D
  Page 2 of 2
